HHS/OIG, Audit -"Blue Cross and Blue Shield of North Carolina Pension Costs Claimed for Medicare Reimbursement,"(A-07-02-03030)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Blue Cross and Blue Shield of North Carolina Pension Costs Claimed
for Medicare Reimbursement," (A-07-02-03030)
April 29, 2003
Complete
Text of Report is available in PDF format (959 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of pension costs
claimed for Medicare reimbursement for Fiscal Years 1992 through 2001 by Blue
Cross and Blue Shield of North Carolina.  For this period, we determined
that North Carolina under claimed allowable Medicare pension costs by $872,735.  The
allowable Medicare pension costs were $3,666,767.  However, North Carolina
claimed pension costs of $2,794,032 for Medicare reimbursement.  This
under claim was the result of North Carolina making erroneous adjustments to
the retirement account and not including indirect costs in the earlier years.  We
recommended that North Carolina revise its Final Administrative Cost Proposals
for FYs 1992 through 2002 to claim additional allowable pension costs of $872,735.